j
No.

In The Supreme Court of the United States
Rebecca Gallogly - Petitioner
vs.
The United States, et. al. - Respondents

Proof of Service
I, Rebecca Gallogly, do declare that on this date 3 ULV \ b f
. as
required by Supreme Court Rule 29, I have served the enclosed MOTION TO
PROCEED IN FORMA PAUPERIS, PETITION FOR A WRIT OF CERTIORARI,
and other ancillary documents on each party to the above proceeding or that party's
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage pre-paid; OR, BY ELECTRONIC MATT.
PURSUANT TO THIS COURT'S COVID-19 ORDER.
The names and addresses of those served are as follows^
Service of Process
Office of the Solicitor General
Room 5614
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

Service of Process
U.S. Attorney's Office, WDT
903 San Jacinto Blvd., Suite 334
Austin, Texas 78701

Service of Process
U.S. Dept of Housing and Urban
Development
451 7th St SW, Washington, DC 20410

Service of Process
Office of General Counsel
Environmental Protection Agency, 1200
Pennsylvania Avenue, N.W., Suite
2310A, Washington, DC 20460

Service of Process
The State of Texas
Secretary of State
P.O. Box 12079
Austin, Texas 78711*2079

Service of Process
Travis County Criminal Court
Blackwell-Thurman CJ Center
509 West 11th St
Austin, TX 78701
Page 1 of 2

i

J

Service of Process
Office of General Counsel

Service of Process
Capital Area Private Defender Service
West 11th Street
Austin, TX

ATTN: GENERAL COUNSEL
The City of Austin
City of Austin
P.0 Box 1088
Austin, Texas 78767-1088
Service of Process
Rene O. Campos
2013 Travis Oak Creek LP
Eureka Holdings
elissa@eurekaholdings.com

Service of Process
Renee Meader
Eureka Multifamily Group
r meader@eurekamg. com

Service of Process
Gina Roberts
Dominium Apartments
groberts@dominiuminc.com

Service of Process
Attorney Michael Burke
mburke@peekandtoland. com

Service of Process
Travis County District Attorney's Office
P.O. Box 1748
Austin, TX 78767
I declare under penalty of perjury that the foregoing is true and correct to the best
of my knowledge.
Executed on

ll>,dL03£)
i

Page 2 of 2

